      TERMINAL MODERNIZATION:
   FAA NEEDS TO ADDRESS ITS SMALL,
MEDIUM, AND LARGE SITES BASED ON COST,
         TIME, AND CAPABILITY
        Federal Aviation Administration

         Report Number: AV-2005-016
        Date Issued: November 23, 2004
           U.S. Department of
                                                              Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Terminal                                            Date:    November 23, 2004
           Modernization: FAA Needs To Address Its
           Small, Medium, and Large Sites Based on
           Cost, Time, and Capability
           AV-2005-016

  From:    Kenneth M. Mead                                                    Reply to
                                                                              Attn. of:   JA-10
           Inspector General
    To:    Federal Aviation Administrator

           This report presents the results of our review of the Federal Aviation
           Administration’s (FAA) Standard Terminal Automation Replacement System
           (STARS) program. Since 1996, STARS has been the centerpiece of FAA’s
           Terminal Modernization Program to replace 1970s-era computer systems and
           aging controller displays. STARS provides radar and flight data to air traffic
           controllers at FAA’s terminal air traffic control sites. Air traffic passes through
           three distinct control environments. At the airport, the Tower has control. After
           take-off, control shifts to the Terminal Radar Approach Control (TRACON).
           Finally, en route centers control aircraft at higher altitudes between airports.
           STARS was designed to provide data to TRACON sites and their associated
           towers.

           We began this review in response to fiscal year (FY) 2004 congressional direction
           to FAA and our office. Specifically, the Congress directed FAA to provide life-
           cycle cost estimates for the complete STARS program to the Appropriations
           Committees and directed us to review and validate FAA’s STARS life-cycle cost
           estimates.1 Although the Congress directed FAA to rebaseline the STARS
           program, the Agency has changed its approach and is not yet in position to
           rebaseline the STARS program. Until FAA rebaselines STARS, we cannot
           credibly validate the cost estimates as directed. This report provides information
           on the status of FAA’s terminal modernization effort. Our objectives were to
           identify FAA’s strategy to meet the needs of its small, medium, and large terminal

           1
               House Report 108-243, accompanying the Fiscal Year 2004 Act making appropriations for the Departments of
               Transportation, Treasury and Independent Agencies, July 30, 2003.
                                                                                    2


sites and consider the alternatives available to FAA to meet those needs. The
exhibit contains our scope and methodology.


RESULTS
Faced with additional cost growth in the STARS program, FAA is rethinking its
terminal modernization approach—a long overdue step that should have been
taken several years ago. In April 2004, FAA revised its approach and committed
STARS deployments to just 50 out of 162 planned sites. The Agency is
considering retaining some existing systems as an alternative to STARS and is
reevaluating STARS costs and deployments. In FY 2005, FAA plans to decide
whether to approve further STARS purchases. The essential question now facing
FAA is how best to finish the terminal modernization effort. FAA needs to move
forward expeditiously to address the needs of its small, medium, and large
terminal sites based on three vectors: cost, time, and capability.

Of special concern is the state of aging displays at four large sites, such as Chicago
and Denver. Under FAA’s current plan, the Agency will not begin installing
STARS and replacing the aging displays at the large sites until sometime in
FY 2008. The entire STARS program, including Chicago and Denver, was
originally planned to be completed by 2005. The aging displays need to be
replaced well before the 2008 timeframe because, among other things, they are
experiencing significant reliability problems. For example, controller displays at
Denver are locking up randomly, and FAA officials from that facility told us that
this problem has occurred 100 times in the past 3½ years and is now occurring a
little over once a week.


Current Status of Terminal Modernization
FAA selected STARS in 1996 as the centerpiece of its terminal modernization
effort. The Agency began STARS after canceling the terminal portion of an
earlier program, the Advanced Automation System. Included in the Advanced
Automation System were plans to replace the existing 1970s-era equipment in
terminals and towers throughout FAA’s National Airspace System.

FAA’s 1996 cost estimate for STARS was $940 million, and the scheduled
completion date was FY 2005 for 172 systems. However, STARS is not the
program that was planned 8 years ago. Although the STARS acquisition was
intended to maximize the use of commercially available equipment, significant
human factors issues were identified in an early STARS prototype that required
extensive software and hardware development. As a result, in FY 1999, the
Agency added 3 years and more than $460 million to its STARS schedule and cost
                                                                                                            3


estimates. Since 1999, STARS has experienced software problems found during
testing that required additional time and cost to resolve. It is also important to
note that FAA has pursued STARS through a cost-plus contract, which places
most of the risk of cost growth with the Government. As Figure 1 shows, STARS
cost estimates continued to increase through 2003, and the STARS schedule
continued to slip.


      Figure 1. Changes in STARS Cost and Schedule Estimates
                         (Dollars in Millions)
                                              1996              1999             2002              2003

    Baseline Cost                            $940.2          $1,402.6          $1,690.0         $1,724.2

    Scheduled Completion Date               FY 2005          FY 2007           FY 2010          FY 2010



Because of the delays in developing STARS, FAA replaced 1970s-era systems at
141 terminal sites with a different system, Common ARTS, between 1998 and
2003 for about $239 million. Since then, Common ARTS has performed well and
meets FAA’s requirements. However, because FAA considered Common ARTS
an interim system, the Agency acquired color displays for only 7 of 11 large
Common ARTS sites and did not replace the aging displays at most sites. In
contrast, each site that receives STARS also receives color displays.

In April 2004, FAA decided to revise its STARS approach again after new
estimates indicated STARS development and deployment costs would grow to
more than $2 billion and the schedule would slip to FY 2011. As we recently
testified to Congress,2 the Agency has very little ability to absorb further cost
growth in any of its acquisition programs. Moreover, cost and schedule problems
with ongoing modernization efforts have serious consequences because they result
in costly interim systems, a reduction in the number of units procured, or the
crowding out of other modernization projects.

After receiving the $2 billion estimate in April 2004, FAA formally changed its
modernization plan and committed STARS to just 50 sites at an officially
estimated cost of $1.46 billion for development and deployment as opposed to the
original estimate of $940 million for over 170 sites. The $1.46 billion estimate
includes more than $500 million FAA has already spent on development with the

2
    Testimony before the Senate Appropriations Committee, Subcommittee on Transportation, Treasury and General
    Government; “Key Issues for the FAA’s FY 2005 Budget,” CC-2004-038; April 22, 2004. OIG reports can be
    accessed on our website at www.oig.dot.gov.
                                                                                                                                              4


                      STARS prime contractor. Development is still not complete. Other prime
                      contractor costs and non-prime costs, such as FAA overhead, exceed $600 million.

                      Overall, FAA has obligated more than $1.1 billion for STARS through August
                      2004. Figure 1 shows the growth in FAA’s official STARS cost estimates from
                      the original $940 million to $1.7 billion between 1996 and 2003. Figure 2 shows
                      the drop in the official development and deployment cost estimate to $1.46 billion
                      when FAA reduced STARS quantities to just 50 operational sites in April 2004.


                          Figure 2. Growth in STARS Development and Deployment Cost
                            Estimate and Effect of a Cut in Approved Quantities in 2004*

                          $2000

                          $1600
Dollars in Millions




                          $1200

                           $800

                           $400
                                          172                  188                  182                   172                  50
                                        Systems              Systems              Systems               Systems              Systems
                             $0
                                          1996                1999                  2002                  2003                2004

                              *
                                  The 50 systems in 2004 represent the number of approved operational sites. FAA also has several
                                  support facilities equipped with STARS systems for testing, training, and maintenance.


                      FAA has authorized deployment of 47 of the 50 STARS currently approved.
                      Through August 2004, the Agency has purchased 39 STARS. Once STARS is
                      deployed at the 47th site, all 173 existing terminal sites3 will be equipped with
                      either STARS or a modern Common ARTS, including the last 3 of the
                      50 approved STARS sites. Replacing these three sites with STARS was




                      3
                          As a result of site consolidations, FAA is reducing the total number of terminal sites and expects to eventually settle
                          at 162 operational sites.
                                                                                                                                          5


prohibited in FY 2004 until FAA provides complete STARS program cost
estimates to Congress and we validate them.4

FAA’s planned 50th STARS site is Chicago, a large Common ARTS site with
aging displays. This site will be the first large Common ARTS to be replaced by
STARS, and FAA risks encountering significant hurdles trying to replace it. The
Agency expects software development to take at least 2 more years and cost
$57 million (without hardware and installation costs) before STARS will be ready
for Chicago. FAA estimates installation will not be complete in Chicago until
sometime in FY 2008.

We met with officials of the National Air Traffic Controllers Association and
discussed the aging displays at Chicago. They expressed concern that FAA plans
to wait several years before replacing aging displays even though new displays are
commercially available and have been deployed at other sites, such as Southern
California. Figure 3 shows the current distribution of Common ARTS, STARS,
and 1970s-era terminal configurations at FAA’s large, small, and medium terminal
sites based on what systems are installed today.5


                       Figure 3. FAA’s Operational Terminal Configurations and
                          Quantities of Each Configuration (September 2004)

                                                                         Small Common
                                                                           ARTS Sites,
                      140                                               With Aging Displays
                                                                           119 systems

                      120

                      100
    Number of Sites




                       80

                       60
                                                                                              Medium 1970s-era       Medium STARS
                                                    Large Common                                                          Sites
                             Large Common                                                            Sites
                                                      ARTS Sites
                       40      ARTS Sites                                                     With Aging Displays   With Color Displays
                            With Color Displays   With Aging Displays                            18 Systems             25 Systems
                       20     7 Systems                4 Systems


                        0
                                                                        Configurations

4
           FY 2004 Consolidated Appropriations Act, Conference Report, Division F, Title I: Department of
           Transportation; November 25, 2003.
5
           For the purposes of this report, we selected categories of terminal sites in terms of “small”, “medium”, and “large”
           that help describe FAA needs based on systems that are currently installed today. Because Common ARTS IIE is
           the prevalent system at FAA’s smallest sites, such as Lubbock, Texas, we refer to all ARTS IIE sites as “small.”
           Similarly, because Common ARTS IIIE systems are operating at FAA largest facilities, such as Southern California,
           we refer to all Common ARTS IIIE sites as “large.” The remaining legacy systems and STARS sites are referred to
           as “medium.”
                                                                                                            6


FAA Needs To Complete Modernization Based on Cost, Time,
and Capability
Since 1996, FAA’s modernization strategy to replace the 1970s-era systems has
been to place STARS at all of its terminal sites. Until recently, STARS was
FAA’s “preferred solution” for terminal modernization. In commenting on our
draft report, FAA stated that while it may have been biased toward STARS in the
past, the Agency has put a new team in place that is objectively evaluating all
alternatives. The Agency’s current mix—Common ARTS at the small (119) and
large (11) sites and STARS at the medium sites (43)—replaces the 1970s-era
systems. The question that FAA must answer now is how best to finish the
modernization effort and do so expeditiously. To answer this question, FAA
needs to address the needs of its small, medium, and large sites and choose
solutions based on three vectors: cost, time, and capability. By doing so, the
Agency will resolve a number of important unknowns.

      • Small Sites. The highest priority considerations for FAA’s small sites are
        cost and capability given traffic volume and the complexity of airspace they
        are responsible for managing.6 The automation systems at these sites have
        been replaced with Common ARTS in the recent past but still rely on older
        displays that prevent the use of advanced system capabilities, such as the
        color display of weather information. Although these small sites do not yet
        face the same time-critical issues that FAA’s large, complex sites do,
        replacing the aging displays with modern color displays and doing
        associated upgrades would eliminate the need to continue maintaining
        obsolete equipment, and as we reported last year,7 reduce STARS
        development and deployment costs.

          FAA has produced a “rough order of magnitude” estimate of about
          $200 million for replacing the aging displays using a Common ARTS
          display solution and doing associated upgrades at all the small sites.
          According to FAA and the STARS contractor, another alternative that FAA
          could consider is a scaled-down version of STARS, which would have
          fewer features than the full STARS system, to meet the modernization
          needs of the small sites. This concept may have merit but has not been
          fully analyzed in terms of cost and time.

      • Medium Sites. The highest priority consideration for FAA’s medium sites
        is system capability. Improving capability is necessary because delays in
        the STARS program have left 1970s-era systems and aging displays at a

6
    FAA has already purchased STARS for four small sites. Once STARS goes operational at these sites, FAA will
    have 115 small sites with Common ARTS.
7
    OIG Report Number AV-2003-058, “FAA Needs To Reevaluate STARS Costs and Consider Other Alternatives,”
    September 10, 2003.
                                                                                                          7


          number of these sites. Cost and time are no longer the driving factor for
          these sites because FAA has been purchasing STARS systems and color
          displays for several years. Only 8 more STARS with color displays need to
          be purchased and 18 to be installed to replace the last of the 1970s-era
          systems and aging displays at the medium sites. For FY 2005, the STARS
          program office has requested $113.9 million to complete installation at the
          medium sites in 2006. Included in this amount is $22 million for STARS
          development.

      • Large Sites. While capability is always an important factor, the highest
        priority consideration for 4 of the 11 large sites now is timeliness. FAA
        deployed Common ARTS systems to 11 large and complex sites, such as
        New York and Southern California. However, only seven of the large sites
        received modern color displays.

          According to FAA’s Vice President for Terminal Services, the condition of
          the aging displays at the remaining four large sites (Chicago, Denver,
          Minneapolis, and St. Louis) has become critical. For example, the aging
          displays at these sites limit any further software enhancements to controller
          workstations, including safety improvements recommended by the National
          Transportation Safety Board during its investigation of a mid-air collision
          in October 2000. The Board recommended that FAA modify software at its
          facilities to help controllers better track aircraft and display information
          when problems arise.8 FAA concurred and is in the process of deploying
          this modification to all sites, except for the four large sites with aging
          displays.

          Denver will not receive STARS until sometime after Chicago receives
          STARS, currently planned for FY 2008. However, recent equipment
          failures at Denver clearly demonstrate its need for display modernization
          has become critical. Because of problems with aging displays, controller
          workstations are locking up on a random basis. FAA officials at the
          Denver facility told us that this has occurred 100 times in the past 3½ years
          and is now occurring a little over once a week. To fix the problem,
          technicians must restart the display, which takes a minimum of 90 seconds.

          In addition, network communications components called transceivers that
          deliver data to the displays have been failing. These equipment failures are
          associated with FAA’s decision to wait for STARS rather than upgrade the
          old displays and related network communications equipment. Denver now
          relies on network components that are no longer manufactured—these
          components can only be replaced by cannibalizing parts from retired

8
    Letter from Acting NTSB Chairman Carol J. Carmody to FAA Administrator Garvey dated April 19, 2001.
                                                                                   8


       systems. Although Chicago, St. Louis, and Minneapolis terminal facilities
       have not experienced the same failures rates, FAA officials at these sites
       have become concerned about this problem and the lack of spare parts.
       Officials of the National Air Traffic Controllers Association are particularly
       concerned about Chicago because of its importance to the overall smooth
       functioning of the National Airspace System.

       FAA has not yet requested formal cost estimates for replacing color
       displays at these four sites. A “rough order of magnitude” estimate
       prepared by Lockheed Martin suggests that it would cost $35 million to
       replace the displays and do other associated upgrades at these four large
       Common ARTS sites. In contrast, FAA estimates a development and
       deployment cost of more than $100 million to deploy STARS (systems and
       displays) at the four sites. Deployment would begin in sometime in
       FY 2008.

       Another alternative is relying on STARS color displays at Common ARTS
       sites. In July 2003, it was demonstrated to FAA that STARS color displays
       could operate with the Common ARTS software. Before FAA pursues this
       approach, the Agency would have to examine cost, time, and capability
       issues.


Aging Displays Can Be Replaced Before STARS Development Is
Complete
Time and cost vectors favor taking action to replace the aging displays at the small
and large Common ARTS sites rather than waiting for STARS. FAA’s current
plans will require at least 3 years to complete STARS development and
deployment at the four large sites. As noted earlier, problems with aging displays
need to be addressed sooner rather than later. Replacing aging displays represents
a step that will extend the useful life of installed systems and enhance their
capability and reliability.

In September 2003 (when FAA was projecting STARS would cost $1.69 billion),
we reported that based on FAA’s cost estimates, the Agency could augment
STARS deployments by replacing just the aging displays at the large and small
sites and save over $268 million versus the preferred STARS solution. As the
Agency’s STARS estimate has now risen to more than $2 billion, FAA could
generate even greater savings by replacing aging displays with commercially
available color displays rather than waiting several years for the full STARS
solution. To determine the actual amount of savings, we urge FAA to compare the
cost to replace the aging displays at the small and large sites to the cost of a full
STARS solution.
                                                                                    9


FAA Must Resolve Important Issues About the Capabilities
Needed for Terminal Modernization
Until recently, FAA viewed STARS as its preferred long-term solution. The
Agency’s justification was that STARS has superior capabilities that will be worth
both the wait and the extra cost. FAA has cited STARS “fusion tracking,” which
is intended to track aircraft more precisely, and STARS computer security as
important capabilities favoring the continued investment in STARS. Thus, the
issue has tended to focus on which system, STARS or Common ARTS, was better.

FAA tasked the MITRE Corporation, the Agency’s Federally Funded Research
and Development Center, to conduct assessments of STARS and Common ARTS
with respect to fusion tracking and its relative benefits, as well as information
security. According to MITRE officials, their assessment does not show
significant differences in the designs of the trackers. In our view, the focus has
shifted from which system is better to what capabilities are needed and where,
what fusion tracking will cost, and how long it will take to deploy.

   • Fusion Tracking. In essence, fusion tracking (or sensor fusion) integrates
     data from multiple sources, such as radar and satellite-based navigation
     systems, to give FAA controllers more accurate information on the position
     of aircraft. According to Lincoln Laboratory, fusion tracking’s potential
     benefit could come from reducing standard separation between aircraft,
     thereby allowing for more efficient use of airspace near airports. The use
     of fusion tracking in managing air traffic is still evolving.

      Currently, STARS is deployed with a fusion tracker at more than
      25 locations but not without problems. For instance, the Agency has
      documented that the STARS tracker can have difficulty accurately tracking
      aircraft as they change altitude or it can drop an aircraft’s flight information
      (i.e., aircraft data tags) that should be displayed on the controller’s screen.
      FAA has had two expert consultants, ARCON and Lincoln Laboratory,
      examining STARS fusion tracking problems and their root causes. In April
      2004, ARCON concluded that further analysis of the STARS altitude
      tracker’s performance was necessary and recommended implementation of
      an alternative altitude tracker that will augment or replace the existing one.

      The Common ARTS fusion tracker is still under development and is in
      testing at Louisville, Kentucky. This tracker integrates both radar and
      satellite-based data, but a number of technical issues need to be resolved
      about how to merge data from different sources. It is unclear how much it
      would cost or how long it would take to deploy the Common ARTS fusion
      tracker.
                                                                             10


   As the MITRE study points out, both STARS and Common ARTS fusion
   trackers are based on state-of the-art designs but are at different points in
   the development cycle. Before real benefits can be expected from fusion
   tracking, such as enhancing capacity, FAA needs to resolve several
   unknowns, regardless of which system is used.

   Currently, FAA’s experience with the Safe Flight 21 initiative shows that
   fusion tracking when integrating data from radar and satellite-based
   navigation systems (such as the Automated Dependent Surveillance
   Broadcast System) has potential benefits. However, STARS relies solely
   on radar fusion tracking and does not yet incorporate satellite-based data.
   A recent evaluation by Lincoln Laboratory of commercially available
   fusion trackers—including the STARS tracker—indicates that radar fusion
   tracking offers no more precise information than that provided by a single
   radar source.

   In our view, the core issues are what capabilities are needed and where,
   what fusion tracking will cost, and when it can realistically be deployed.
   This is reinforced by the MITRE study, which found no significant
   differences in the design of the two trackers. The MITRE study also points
   out that development remains to determine how fusion will be used in the
   terminal environment and what procedures need to be modified.

• Computer Security. FAA officials have maintained in the past that STARS
  security provides a substantive increase over computer security in the
  existing Common ARTS system. This implies that the computer security
  features of the existing system are not adequate. However, as we reported
  in September 2003, FAA’s Information Security Office has determined that
  both systems are acceptable and has assigned a moderate risk rating to each.

   Similarly, FAA’s Director of Airways Facilities has granted security
   authorization for both systems to operate in the National Airspace System.
   Moreover, the security vulnerabilities and security requirements are not the
   same for each system. For instance, because STARS is connected to
   outside locations, such as operational support facilities, remote STARS
   operators and support personnel could possibly gain root access to the
   STARS operating system. Additional security features to address certain
   shortfalls could be added to Common ARTS. As the MITRE study points
   out, this was known 3 years ago. Additional security could be added to
   Common ARTS at an estimated cost of $3.8 million.
                                                                                                         11


Next Steps for Terminal Modernization
The goal is how best to finish the modernization effort and do so expeditiously and
at a reasonable cost. FAA’s experience shows that one size does not fit all for
terminal modernization. FAA needs to recognize that the modernization needs of
the sites vary with respect to cost, time, and capability and should evaluate
solutions accordingly. Further, FAA must resolve a number of unknowns, such as
whether a scaled-down version of STARS for small sites is feasible, before
making further investments in STARS.

FAA needs to reduce the risk of cost growth in the STARS contract. As we
testified in April 2004, cost-reimbursable contracts cause the Government, and
eventually the taxpayer, to absorb cost growth associated with overruns.9 FAA has
been using a cost-reimbursable type of contract for STARS. However, because
the timeframes associated with production options in the original STARS contract
expired in September 2002, FAA is negotiating a new agreement with the STARS
prime contractor.

In commenting on our draft report, FAA stated that the Agency has a signed
memorandum of agreement with Raytheon to put STARS into a large Common
ARTS facility. We are not persuaded that a memorandum of agreement executed
by a Federal official in advance of appropriations is controlling, particularly when
FAA is negotiating a new agreement with the prime contractor at a time when
work continues on short-term extensions. The important issue here is doing what
makes sense for air traffic control, safety, and the taxpayer.

In our opinion, the Government could reduce contract risk by not using cost-
reimbursable elements or keeping their use to a bare minimum. Since FAA has
already installed STARS at more than 25 sites, the Agency claims it has sufficient
experience to predict these costs for other sites. Therefore, FAA should maximize
the use of fixed price agreements for procuring and installing STARS.


Recommendations
FAA cannot continue to delay making decisions about terminal modernization. A
number of studies have been done, and the alternatives have been identified.
Therefore, we are recommending that FAA take immediate action to:

      1. Replace aging displays at its four large terminal sites that do not have color
         displays. This should be done expeditiously and based on the priority
         needs of individual sites. As our report indicates, FAA cannot wait 3 more
         years.
9
    Testimony before the Senate Appropriations Committee, Subcommittee on Transportation/Treasury and General
    Government; Report Number CC-2004-038, “Key Issues for FAA’s 2005 Budget,” April 22, 2004.
                                                                                12


   2. Defer further investment in STARS beyond those needed to complete the
      47 approved sites until the Agency completes its evaluation of moving
      forward with STARS or Common ARTS based on cost, schedule, and
      performance parameters. This is the evaluation we called for over 3 years
      ago in March 2001, and it should be completed within 6 months. As part
      this evaluation, FAA should:

          (a) Request cost proposals for small terminal sites to replace aging
              displays with new color displays and implement a STARS solution,
              including a scaled-down version.

          (b) Determine requirements for fusion tracking, as well as where it is
              needed, how much will cost, and how long it will take to deploy.

   3. Negotiate a contract that maximizes the use of fixed price elements for
      completing the 47 sites already approved for STARS deployment, including
      installation and adaptation costs.


Agency Comments and Office of Inspector General Response
On October 8, 2004, we provided FAA with a draft of this report for formal
Agency comment. On November 15, 2004, FAA electronically provided us with
their response, which is contained in its entirety in the Appendix. FAA made a
number of comments regarding our description of capabilities and limitations of
terminal systems currently in use or planned, as well as cost. We adjusted our
report, where appropriate, based on these comments. A more detailed discussion
of FAA comments and our response is contained later in this report.

FAA recognizes the need to replace aging displays and stated that the Agency is
committed to a fair evaluation that identifies the best solution for each site. FAA
also notes that while it may have been biased toward STARS in the past, the
Agency has put a new team in place that is objectively evaluating all alternatives.

FAA commented that there are ramifications for the Department of Defense
(DOD) with respect to increased costs and infrastructure support for DOD if the
Agency decided to limit the number of STARS purchases. Given that FAA plans
to deploy STARS to at least 47 sites, we do not understand why this would be the
case. Although FAA is concerned about increased costs with STARS for DOD,
FAA should be more concerned about the cost of its own terminal modernization
efforts. We note that DOD did not wait for FAA to address human factors
concerns (which surfaced in the 1990s) and deployed STARS at Eglin Air Force
Base, Florida, in June 2000 well before FAA deployed the first “full STARS” to
Philadelphia in November 2002. DOD continues to deploy STARS independent
of FAA’s development of STARS for large sites. If there are issues regarding
                                                                                   13


STARS and the Department of Defense, this is something that FAA’s new team
that is responsible for objectively evaluating terminal modernization should
consider.

FAA concurred with our recommendation to replace aging displays at its four
larger terminal sites that currently do not have color displays. FAA stated that it is
conducting a comprehensive technical, cost, and risk evaluation to determine the
best solution for the sites. However, it is uncertain from FAA’s response when the
Agency plans to take action at the four sites. The fact remains that some sites,
such as Denver, face time-critical decisions about replacing aging displays. We
are requesting that FAA clarify when this action will be taken.

FAA concurred with our recommendation to defer further investment in STARS
beyond the 47 sites that have been approved and evaluate the long-term feasibility
of moving forward with STARS or Common ARTS in terms of cost, schedule, and
performance parameters. This should be done in 6 months. As noted in the report,
replacing the aging displays at large sites will extend the useful life of installed
systems and provide FAA time to evaluate how it should proceed with terminal
modernization. Regarding our recommendation in the draft report on small sites,
FAA pointed out that capability is an important factor as well as cost. We agree
and have modified our recommendation accordingly.

FAA concurred, in part, with our recommendation to negotiate a firm fixed price
contract for completing the 47 sites already approved for STARS deployment that
includes installation and adaptation costs. FAA stated that it is negotiating a fixed
price contract for STARS systems but intends to rely on a time and materials
financial arrangement for installation. FAA stated that this would avoid higher
risk adjusted costs that accompany fixed price installation. FAA also stated that it
has sufficient experience with STARS to ensure that installations come in at their
budgeted cost. This seems to create an even more compelling case to maximize
the use of fixed price elements to control costs. We are requesting that FAA
reconsider its response to this recommendation.
                                                                                                                  14




BACKGROUND
FAA selected STARS in 1996 as the centerpiece of its terminal modernization
effort. The Agency began STARS after dramatically restructuring an earlier
program, the Advanced Automation System, that was significantly over cost and
behind schedule. Included in that earlier program were plans to replace 1970s-era
equipment in terminals and towers throughout FAA’s National Airspace System.
After FAA canceled the Advanced Automation System, the STARS program was
selected to replace the 1970s-era systems.

FAA’s 1996 cost estimate for STARS was $940 million, and the scheduled
completion date was FY 2005 for 172 systems. However, STARS is not the
program that was planned 8 years ago. Although the STARS acquisition was
intended to maximize the use of commercially available equipment, significant
human factors issues were identified in an early STARS prototype that required
extensive software and hardware development. In 1999, the Agency added 3 years
and more than $460 million to its STARS schedule and cost estimates, bringing
the new estimate to $1.4 billion and extending the schedule to FY 2007. Since
1999, STARS has experienced software problems found during testing that
required additional time and cost to resolve.

FAA’s latest STARS cost and schedule estimates indicate deploying STARS
systems and color displays to all sites to meet Agency needs is not affordable
within the approved $1.54 billion STARS Capital Investment Plan.10 Further, the
current plan will not result in replacing 20-year old displays at a number of critical
sites, including Chicago, until at least 2008.

Because of STARS delays, modern Common ARTS digital systems were
developed and deployed between 1998 and 2003 to replace 1970s-era computer
systems at more than 140 terminal sites for about $239 million. Common ARTS
meets FAA’s requirements. However, because FAA considers Common ARTS an
interim system, the Agency acquired modern color displays for only seven large
Common ARTS sites and did not replace aging displays at most sites. In contrast,
FAA includes color displays for all STARS sites.


ANALYSIS AND RECOMMENDATIONS
Until recently, FAA’s “preferred solution” for terminal modernization was to
deploy STARS systems with color displays to all of its small, medium, and large
terminal sites. In 2002, FAA began deploying STARS to medium sites, such as

10
     FAA’s Capital Investment Plan is a planning document for projecting future funding needs for its programs.
                                                                                15


Philadelphia, and more than 25 medium sites are now operating with STARS.
However, FAA operates more than 160 sites overall, and the Agency does not
expect to complete STARS deployments to all sites before FY 2011. Faced with
significant additional cost growth and schedule slippage, FAA is now rethinking
its terminal modernization approach. This is a long overdue step that should have
been taken several years ago. The essential question now facing FAA is how best
to finish terminal modernization. FAA needs to move forward expeditiously to
address the needs of its small, medium, and large terminal sites based on three
vectors: cost, time, and capability.


Current Status
In April 2004, facing a $2.1 billion estimate for its preferred STARS solution,
FAA formally revised its terminal modernization plan by committing STARS to
just 50 sites, at an estimated development and deployment cost of $1.46 billion. In
addition to limiting STARS deployments, FAA has also revised its terminal
modernization plan by committing to (1) consider retaining Common ARTS at
some sites as an alternative to STARS, and (2) reevaluating STARS costs and
deployments before considering further STARS purchases in FY 2005.

FAA’s $1.46 billion estimate for 50 sites includes more than $500 million that
FAA has spent on STARS development, although development was originally
estimated to cost about $80 million and is still not complete. Other prime
contractor costs (such as production and installation) and non-prime costs (such as
FAA overhead) exceed $600 million.

In April 2004, STARS program officials presented a three-phase STARS
deployment timeline to FAA decision-makers. In Phase 1, FAA plans to deploy
STARS to the first 50 sites by FY 2007. For Phase 2, the Agency will decide in
FY 2005 whether to approve 60 additional STARS for deployment by the end of
FY 2009. For the final phase, in FY 2006, FAA will decide whether to approve
52 more STARS. Figure 4 shows the STARS program office’s three-phase plan.


        Figure 4. Three-Phase STARS Deployment Timeline
                                        Phase 1       Phase 2       Phase 3

   Decision Date                       April 2004 March 2005        Oct 2005

   Scheduled Completion                 FY 2007      FY 2009        FY 2011

   Number of Operational Sites             50           60             52
                                                                                                    16


Deploying STARS to All Sites Will Have a Significant Budgetary
Impact
FAA’s $2.1 billion estimate for STARS is more than $300 million larger than last
year’s STARS program cost estimate. FAA is now operating in a constrained
budget environment and has very little ability to absorb further cost growth in any
of its acquisition programs.11 Cost and schedule problems with ongoing
modernization efforts have serious consequences because they result in costly
interim systems, a reduction in the number of units procured, or the crowding out
of other modernization projects.

The combination of continuing STARS cost growth and a severely constrained
budget environment has significantly changed FAA’s terminal modernization
equation. For instance, the Agency’s approved Capital Investment Plan shows a
$231 million combined figure for FY 2008 and FY 2009 for STARS. However,
implementing FAA’s preferred STARS solution, which is to deploy STARS to
162 operational sites, requires a Capital Investment Plan profile of $520 million,
an increase of $289 million for those 2 years.

Figure 5 illustrates the budgetary impact of FAA’s all-STARS solution versus
what is programmed for STARS in the Agency’s approved Capital Investment
Plan. Planning a program on the assumption that a 2-year budget increase of
almost $300 million will be forthcoming may be imprudent.




11
     Inspector General testimony before the Senate Appropriations Committee, Subcommittee on
     Transportation/Treasury and General Government; “Key Issues for FAA’s FY 2005 Budget,” CC-2004-038;
     April 22, 2004.
                                                                                                     17




                        Figure 5. Approved STARS Capital Investment Plan Versus an
                                     All-STARS Solution Funding Profile
                      $300

                      $250

                      $200

                      $150
Dollars in Millions




                      $100

                       $50

                        $0
                               FY 2004     FY 2005      FY 2006     FY 2007      FY 2008      FY 2009
                                    Approved STARS CIP                   Preferred STARS Solution




                      FAA’s Modernization Needs Have Changed
                      In 1996, FAA’s terminal modernization needs and their solution were
                      straightforward—replace 1970s-era systems and aging displays with STARS.
                      However, STARS delays forced FAA into replacing the 1970s-era systems with an
                      interim system, Common ARTS, between 1998 and 2003 at more than 140 small
                      and large terminal sites, including 11 large and complex sites such as Chicago and
                      Denver.

                      Today, FAA’s revised plan formally commits STARS to a total of just 50 sites and
                      approves STARS deployments to 47 of the 50 sites. After the 47th STARS is
                      deployed, FAA will no longer have any 1970s-era systems left to replace.
                      However, as Figure 6 shows, after the last 1970s-era system is retired, the vast
                      majority of FAA’s 162 planned operational sites will be equipped with Common
                      ARTS and aging displays. Common ARTS meets FAA’s requirements, but the
                      Agency did not replace the aging displays at most sites when it was installed,
                      preferring instead to wait for STARS. The question now is how to complete
                      terminal modernization cost effectively and expeditiously.
                                                                               18


  Figure 6. FAA’s Terminal Site Configurations After Deploying
                           47 STARS
                     Large Common               Large Common
                      Arts Site s with         Arts Site s without
                     Color Displays, 7         Color Displays, 4



                                                         Me dium STARS
                                                         Site s with Color
                                                           Displays, 43




       Small Common
       Arts Site s with
            Aging
        Displays, 115
                                                            Small STARS
                                                             Site s with
                                                           Color Displays,
                                                                  4




FAA Needs To Complete Its Terminal Modernization Effort Based
on Cost, Time, and Capability
Once the 1970s-era systems are retired, the primary shortcoming at most sites will
be the continued dependence on aging displays. FAA’s next step must be to focus
on this shortcoming and complete terminal modernization affordably and
expeditiously. When FAA replaced the 1970s-era systems at the large and small
sites with Common ARTS, the Agency matched the system to the size and
complexity of the sites. For instance, FAA scaled the Common ARTS digital
system hardware to terminal site needs. Large and complex sites like Southern
California received triple-redundant systems capable of handling input from
multiple radars and later received computer processor upgrades. Small sites like
Lubbock, Texas, received a single system that receives data from a single primary
radar. In completing terminal modernization, FAA needs to address its needs at
small, medium, and large sites and choose solutions based on three vectors: cost,
time, and capability.


Small Sites
The highest priorities for FAA’s small sites are cost and capability given traffic
volume and complexity of airspace they are responsible for managing. After FAA
has replaced all of the 1970s-era systems, the Agency will have 115 small terminal
sites with Common ARTS systems. These sites do not yet have the same critical
issue of timeliness driving their modernization needs as do FAA’s large, complex
                                                                                 19


sites. However, the small sites have aging, 20-year-old displays called Radar
Alphanumeric Displays that prevent usage of full Common ARTS capabilities,
such as the color display of weather information. Replacing the aging displays
with modern color displays would eliminate the need for technicians to maintain
obsolete hardware and allow air traffic controllers at the small sites with digital
radar to use more Common ARTS functions, such as color display of weather
information.

The Common ARTS contractor and FAA estimate that if the Agency retains
Common ARTS systems at these 115 sites, replaces the aging displays with color
displays, and does other upgrades, such as replacing outdated computer processors
and adding a backup system, the cost would be approximately $200 million. The
Agency is analyzing its alternatives for these sites.

According to STARS program officials and the contractor, an alternative that FAA
could consider for the small sites is a scaled-down version of STARS with color
displays. This version would be less costly by having fewer features than the
original STARS system now deployed at the medium sites. This concept may
have merit, but it has not been fully analyzed in terms of cost and time and has not
been demonstrated, tested, or deployed to any FAA site. To know whether a
STARS solution makes sense for the small sites, the Agency needs to compare the
cost of STARS to the cost of upgrading Common ARTS and replacing the aging
displays with commercially available displays. For the small sites, we are
recommending that FAA request cost proposals for (a) replacing aging displays
with new color displays and (b) implementing a STARS solution and selecting the
most cost-effective and timely alternative.


Medium Sites
The highest priority for FAA’s medium sites is system capability. FAA did not
deploy Common ARTS to these sites. Improving capability is necessary because
delays in the STARS program have left a number of these sites with aging 1970s-
era systems and aging displays. Cost and time are not a driving factor because
FAA has been purchasing STARS systems and color displays for these sites for
several years. Only 8 more STARS with color displays need to be purchased and
18 installed to replace the last of the 1970s-era systems. For FY 2005, the STARS
program office has requested $113.9 million to continue deploying to the medium
sites. Due to the overall delays in the program, STARS components being
purchased today are now facing obsolescence, even though they were modern in
1996. FAA plans to begin technology refresh efforts in FY 2006.
                                                                                                           20


Large Sites
While capability is always an important factor, the highest priority decision vector
for FAA’s large sites is timeliness because aging displays need to be replaced.
FAA deployed Common ARTS systems to 11 large and complex sites, such as
New York and Southern California. These are currently FAA’s most advanced
sites, and system capability and cost are not primary modernization drivers
because seven of the large sites received modern color displays. Nevertheless, the
Agency’s current plan is to wait for STARS to be delivered beginning sometime in
FY 2008 rather than replace these aging displays now.

STARS is not expected to be ready to deploy to Chicago until sometime in
FY 2008 because FAA first needs to spend $57 million for further development
through FY 2007. We met with officials of the National Air Traffic Controllers
Association and discussed the aging displays at Chicago. They expressed concern
that FAA plans to wait several years before replacing the aging displays even
though new displays are commercially available and have been deployed at other
Common ARTS sites, such as Southern California.

According to FAA’s Vice President for Terminal Services, the condition of the
aging displays at the remaining four large sites (Chicago, Denver, Minneapolis,
and St. Louis) has become critical. For example, the aging displays at the
remaining four sites limit any further software enhancements to controller
workstations, including safety improvements recommended by the National
Transportation Safety Board during its investigation of a mid-air collision in
October 2000. The Board recommended that FAA modify software at its facilities
to help controllers better track aircraft and display information when problems
arise.12 FAA concurred and is in the process of deploying this modification to all
sites, except for the four large sites with aging displays.

Denver will not receive STARS until after Chicago receives STARS (sometime in
FY 2008 at the earliest), but recent equipment failures at the site clearly
demonstrate Denver’s need for display modernization has become critical.
Because of problems with aging displays, controller workstations are locking up
on a random basis. FAA officials at the Denver facility told us that this has
occurred 100 times in the past 3½ years and is now occurring a little over once a
week. To fix the problem, technicians must restart the display, which takes a
minimum of 90 seconds.

In addition, network communications components called transceivers that deliver
data to the displays have been failing. These equipment failures are associated
with FAA’s decision to wait for STARS rather than upgrade the old displays and

12
     Letter from Acting NTSB Chairman Carol J. Carmody to FAA Administrator Garvey dated April 19, 2001.
                                                                                 21


related network communications equipment. Denver now relies on network
components that are no longer manufactured—these components can only be
replaced by cannibalizing parts from retired systems. Although Chicago, St.
Louis, and Minneapolis terminal facilities have not experienced the same failures
rates, FAA officials at these sites have become concerned about this problem and
the lack of spare parts.

As an alternative to waiting several more years for STARS, FAA could start
replacing the obsolete displays immediately with commercially available color
displays and installing other associated upgrades to improve reliability. FAA
implemented this same solution in Southern California and completed the work in
less than 1 year. FAA has not yet requested formal cost proposals, but the
Common ARTS contractor estimates that this solution for all four large sites could
be completed for $35 million. In contrast, FAA estimates that just completing the
STARS software development will cost $57 million through FY 2007. This
estimate does not include hardware and installation costs. After STARS
development is complete, FAA expects deployment to the four sites will take
place beginning in FY 2008.

Another alternative is relying on STARS color displays at Common ARTS sites.
In July 2003, it was demonstrated to FAA that STARS color displays could
operate with the Common ARTS software. Before FAA pursues this approach,
the Agency would have to examine cost, time, and capability issues.


Aging Displays Can Be Replaced Before STARS Development Is
Complete
Time and cost vectors favor taking action to replace the aging displays at the small
and large Common ARTS sites rather than waiting for STARS. However, FAA’s
current plans will require at least 3 years to complete STARS development and
deployment at the four large sites. As noted earlier, problems with aging displays
need to be addressed sooner rather than later. Replacing aging displays represents
a step that will extend the useful life of installed systems and enhance their
capability and reliability.

In September 2003, when FAA was projecting STARS would cost $1.69 billion,
we reported that based on FAA’s cost estimates, the Agency could augment
STARS deployments by replacing aging displays at the small and large sites and
save over $268 million versus the preferred STARS solution. As the Agency’s
STARS cost estimate has now risen to more than $2 billion, FAA would generate
even greater savings by replacing aging displays rather than waiting for the full
STARS solution. However, to determine the actual savings with a degree of
                                                                                   22


precision, we urge FAA to compare the actual cost to replace the aging displays at
the small and large sites to the cost of a full STARS solution.


FAA Must Resolve Important Issues About the Capabilities
Needed for Terminal Modernization
Until recently, FAA viewed STARS as its preferred long-term solution. The
Agency’s justification was that STARS has superior capabilities that will be worth
both the wait and the extra cost. In the past, FAA cited STARS “fusion tracking,”
which is intended to track aircraft more precisely, and STARS computer security
as important capabilities favoring the continued investment in STARS. Also,
FAA maintained that the STARS “open architecture” was its “most significant”
feature and that STARS provides a substantive increase in redundancy. Thus, the
focus has tended to be on which system was better.

FAA tasked the MITRE Corporation, the Agency’s Federally Funded Research
and Development Center, to conduct assessments of STARS and Common ARTS
with respect to fusion tracking and its relative benefits, as well as security.
According to MITRE officials, their assessment does not show significant
differences in the designs of the trackers. In our view, the focus has shifted from
which system is better to a question of what capabilities are needed and where,
what fusion tracking will cost, and how long it will take to deploy.

   • Fusion Tracking. In essence, fusion tracking (or sensor fusion) integrates
     data from multiple sources, such as radar and satellite-based navigation
     systems, to give FAA controllers more accurate information on the position
     of aircraft. According to Lincoln Laboratory, fusion tracking’s potential
     benefit could come from reducing standard separation between aircraft,
     thereby allowing for more efficient use of airspace near airports. The use
     of fusion tracking in managing air traffic is still evolving.

      Currently, STARS is deployed with a fusion tracker at more than
      25 locations but not without problems. These problems have been
      identified by air traffic controllers and other personnel and are documented
      in recent FAA program technical reports. For instance, the Agency has
      documented that the STARS tracker can have difficulty accurately tracking
      aircraft as they change altitude or it can drop an aircraft’s flight information
      (i.e., aircraft data tags) that should be displayed on the controller’s screen.
      FAA has had two expert consultants, ARCON and Lincoln Laboratory,
      examining STARS fusion tracking problems and their root causes. In April
      2004, ARCON concluded that further analysis of the STARS altitude
      tracker’s performance was necessary and recommended implementation of
      an alternative altitude tracker that will augment or replace the existing one.
                                                                             23


   The Common ARTS fusion tracker is still under development and is in
   testing at Louisville, Kentucky. This tracker integrates both radar and
   satellite based data but a number of technical issues need to be resolved
   about how to merge data from different sources. It is unclear how much it
   would cost or how long it would take to deploy the Common ARTS fusion
   tracker.

   As the MITRE study points out, both STARS and Common ARTS fusion
   trackers are based on state-of the-art designs but are at different points in
   the development cycle. Before real benefits can be expected from fusion
   tracking, such as enhancing capacity, FAA needs to resolve several
   unknowns regardless of which system is used.

   Currently, FAA’s experience with the Safe Flight 21 initiative shows that
   fusion tracking when integrating data from radar and satellite-based
   navigation systems (such as the Automated Dependent Surveillance
   Broadcast System) has potential benefits. However, STARS relies solely
   on radar fusion tracking and does not yet incorporate satellite-based data.
   A recent evaluation by Lincoln Laboratory of commercially available
   fusion trackers—including the STARS tracker—indicates that radar fusion
   tracking offers no more precise information than that provided by a single
   radar source.

   In our view, the core issues are what capabilities are needed and where,
   what it will cost, and when it can realistically be deployed. This is
   reinforced by the MITRE study, which found no significant differences in
   the design of the two trackers. The MITRE study also points out that
   development remains to determine how fusion will be used in the terminal
   environment and what procedures need to be modified.

• Computer Security. FAA officials have maintained that STARS security
  provides a substantive increase over computer security in the existing
  Common ARTS system. This implies that the computer security features of
  the existing system are not adequate. However, as we reported in
  September 2003, FAA’s Information Security Office has determined that
  both systems are acceptable and has assigned a moderate risk rating to each.

   Similarly, FAA’s Director of Airways Facilities has granted security
   authorization for both systems to operate in the National Airspace System.
   Moreover, it is not meaningful to state that STARS provides a substantive
   increase in security since the security vulnerabilities and security
   requirements are not the same for the two systems. For instance, because
   STARS is connected to outside locations, such as operational support
   facilities, remote STARS operators and support personnel could possibly
                                                                             24


   gain root access to the STARS operating system. The Common ARTS
   contractor could add additional security features to Common ARTS to
   address certain shortfalls. As the MITRE study points out, this was known
   3 years ago and additional security could be added to Common ARTS at an
   estimated cost of $3.8 million.

• Open Architecture. FAA has stated that a modern “open architecture” is
  STARS’ most significant feature and that this will enable expansion and
  adaptation to new functional requirements. However, the system is based
  on a proprietary computer standard and is not truly “open.” Therefore,
  FAA depends on the original computer equipment manufacturer. FAA
  refers to this as being “somewhat vendor-specific.”

   Further, due to overall program delays, STARS components being
   purchased today are now facing obsolescence, even though they were
   modern in 1996. For example, recently purchased STARS computers
   contain refurbished (i.e., used) “Ultra 5” computer processors because
   Ultra 5s are no longer manufactured. To address this, FAA plans to begin
   modernizing STARS through a technology refresh program beginning in
   FY 2006. FAA points out that Common ARTS will also face technology
   refresh questions in the future.

   Currently, FAA is negotiating with the STARS contractor for development
   of an Ultra 5 replacement processor. However, FAA currently has little
   choice but to purchase refurbished Ultra 5s while waiting for development
   of the new processor and software modifications to be completed.

   In addition, FAA has not demonstrated that the STARS architecture readily
   enables expansion and adaptation to new functional enhancements. For
   instance, FAA has had a difficult experience in attempting to add a “final
   monitor aid” function to STARS. This is a function for air traffic
   controllers who control aircraft on final approach at airports with closely
   spaced parallel runways. The final monitor aid function is intended to
   enable the controllers to increase capacity by directing aircraft to safe and
   near simultaneous landings (rather than staggered landings) even in
   conditions of low visibility. After 2 years of effort and several million
   dollars invested, FAA does not have a working STARS final monitor aid
   function deployed.

• Redundancy. FAA maintains that STARS is superior because it provides
  quadruple redundancy: two full service systems and two emergency
  backups. While the two full service systems have all the safety features,
  the emergency backup does not have safety features such as minimum safe
  altitude warning or collision avoidance alarms. These safety features are
                                                                                 25


      required in the existing backup systems at the Agency’s large terminal sites.
      To make STARS equivalent to existing systems, FAA will need to develop
      safety features for the STARS emergency backup system.

      Currently, the large terminal sites have triple redundancy with safety alarms
      in each level of backup. More specifically, the first two Common ARTS
      backup systems are the same as the primary operating system.
      Additionally, some sites have a relatively new system called Radar
      Gateway that provides another layer of backup. At small terminal sites,
      FAA has no requirement for a backup system so none was purchased when
      the existing Common ARTS computer systems were installed. Of course,
      FAA could choose to add backup systems at the small sites if the Agency
      believes it is necessary. Cost estimates for these modifications have not
      been developed.


Next Steps for Terminal Modernization
The goal is how best to finish the modernization effort and do so expeditiously and
at a reasonable cost. FAA’s experience shows that one size does not fit all for
terminal modernization. FAA needs to recognize that the modernization needs of
the sites vary with respect to cost, time, and capability and should evaluate
solutions accordingly. Further, FAA must resolve a number of unknowns, such as
whether a scaled-down version of STARS for small sites is feasible, before
making further investments in STARS.


FAA Needs To Reduce the Risk of Cost Growth in the STARS
Contract
FAA needs to reduce the risk of cost growth in the STARS contract. As we
testified in April 2004, cost-reimbursable contracts cause the Government, and
eventually the taxpayer, to absorb cost growth associated with overruns. FAA has
been using a cost-reimbursable type of contract for STARS. However, because
timeframe for production options in the original STARS contract expired in
September 2002, FAA is negotiating a new agreement with the STARS prime
contractor.

In commenting on our draft report, FAA stated that the Agency has a signed
memorandum of agreement with Raytheon to put STARS into a large Common
ARTS facility. We are not persuaded that a memorandum of agreement executed
by a Federal official in advance of appropriations is controlling, particularly when
FAA is negotiating a new agreement with the prime contractor at a time when
work continues on short-term extensions. The important issue here is doing what
makes sense for air traffic control, safety, and the taxpayer.
                                                                                 26


According to FAA, the new agreement will be limited to the purchase of the eight
systems needed to complete the replacement of the 1970s-era systems. In addition
to the purchase of the equipment, this agreement will also cover the necessary
software development and installation work for these systems. FAA’s plan for this
new agreement calls for a mixture of fixed price and time and materials contract
elements. FAA expects that the purchase and development cost will make up
60 to 70 percent of the total and be fixed price. The remaining 30 to 40 percent
covering STARS installation and adaptation will be cost-reimbursable. In our
opinion, the Government could reduce contract risk by not using cost-
reimbursable elements or keeping their use to a bare minimum. Since FAA has
already installed STARS at more than 25 sites, the Agency claims it has sufficient
experience to predict these costs for other sites. Therefore, FAA should maximize
the use of fixed price agreements for procuring and installing STARS.


RECOMMENDATIONS
FAA cannot continue to delay making decisions about terminal modernization. A
number of studies have been done and the alternatives have been identified.
Therefore, we are recommending that FAA take immediate action to:

   1. Replace aging displays at its four large terminal sites that do not have color
      displays. This should be done expeditiously and based on the priority
      needs of individual sites. As our report indicates, FAA cannot wait 3 more
      years.

   2. Defer further investment in STARS beyond those needed to complete the
      47 approved sites until the Agency completes its evaluation of moving
      forward with STARS or Common ARTS based on cost, schedule, and
      performance parameters. This is the evaluation we called for over 3 years
      ago in March 2001, and it should be completed within 6 months. As part
      this evaluation, FAA should:

          (a) Request cost proposals for small terminal sites to replace aging
              displays with new color displays and implement a STARS solution,
              including a scaled-down version.

          (b) Determine requirements for fusion tracking, as well as where it is
              needed, how much will cost, and how long it will take to deploy.

   3. Negotiate a contract that maximizes the use of fixed price elements for
      completing the 47 sites already approved for STARS deployment, including
      installation and adaptation costs.
                                                                                   27


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On October 8, 2004, we provided FAA with a draft of this report for formal
Agency comment. On November 15, 2004, FAA electronically provided us with
their response, which is contained in its entirety in the Appendix. FAA recognizes
the need to replace aging displays and stated that the Agency is committed to a fair
evaluation that identifies the best solution for each site. The draft report did refer
to STARS as FAA’s preferred solution. Because of FAA’s comments, we state
that FAA is rethinking its approach and we no longer refer to STARS as the
Agency’s current preferred alternative. FAA also notes that while it may have
been biased toward STARS in the past, the Agency has put a new team in place
that is objectively evaluating all alternatives. We adjusted our report, where
appropriate, based on these comments.

FAA made a number of comments with respect to our description of capabilities
and limitations of terminal systems currently in use or planned. Specifically, FAA
points out that the Common ARTS fusion tracker is still under development, and
much work remains to complete the tracker. We agree and have made adjustments
to our report to reflect the developmental nature of the tracker.

With respect to STARS cost growth (from $1.69 billion to over $2 billion), FAA
stated that cost growth with the program is attributable to the extension of time
and the inability to accelerate the program as a result of competing capital
programs and funding, rather than increases in development and deployment costs.
The causation of schedule slips with STARS is directly attributable to extensive
software and hardware development. As the report notes, STARS development is
still not complete. Also, with a cost-plus contract, delays typically translate into
additional costs.

Related to STARS software development, FAA stated that it would cost
$12 million to develop the necessary software for Chicago alone. However,
FAA’s cost estimates provided to our office earlier this year show that a total of
$57 million will have to be spent on software before STARS can complete
deployment for Phase 1, which includes Chicago.

FAA commented that there are ramifications for DOD with respect to increased
costs and infrastructure support for DOD if the Agency decided to limit the
number of STARS purchases. Given that FAA plans to deploy STARS to at least
47 sites, we do not understand why this would be the case. Although FAA is
concerned about increased costs with STARS for DOD, FAA should be more
concerned about the cost of its own terminal modernization efforts. We note that
DOD did not wait for FAA to address human factors concerns (that surfaced in the
1990s) and deployed STARS at Eglin Air Force Base, Florida, in June 2000 well
                                                                                    28


before FAA deployed the first “full STARS” to Philadelphia in November 2002.
DOD continues to deploy STARS independent of FAA’s development of STARS
for large sites. If there are issues regarding STARS and DOD, this is something
that FAA’s new team that is responsible for objectively evaluating terminal
modernization should consider.

FAA concurred with our recommendation to replace aging displays at its four
larger terminal sites that currently do not have color displays. FAA stated that it is
conducting a comprehensive technical, cost, and risk evaluation to determine the
best solution for the sites. However, it is not clear from FAA’s response when the
Agency plans to take action at the four sites. The fact remains that some sites,
such as Denver, face time-critical decisions about replacing aging displays. We
are requesting that FAA clarify its response.

FAA concurred with our recommendation to defer further investment in STARS
beyond the 47 sites that have been approved and to evaluate the long-term
feasibility of moving forward with STARS or Common ARTS in terms of cost,
schedule, and performance parameters. This should be done in 6 months. As
noted in the report, replacing the aging displays at large sites will extend the useful
life of installed systems and provide FAA time to evaluate how it should proceed
with terminal modernization. Regarding our recommendation in the draft report
on small sites, FAA pointed out that capability is an important factor as well as
cost. We agree and have modified our recommendation accordingly.

FAA concurred, in part, with our recommendation to negotiate a firm fixed price
contract for completing the 47 sites already approved for STARS deployment that
includes installation and adaptation costs. FAA stated that it is negotiating a fixed
price contract for STARS systems but intends to rely on a time and materials
financial arrangement for installation. FAA stated that this would avoid higher
risk adjusted costs that accompany fixed price installation. FAA also stated that it
has sufficient experience with STARS to ensure that installations come in at their
budgeted cost. This seems to create an even more compelling case to maximize
the use of fixed price elements to control costs. We are requesting that FAA
reconsider its response to this recommendation.


ACTION REQUIRED
We request that FAA reconsider or clarify its response to our recommendations,
given the modifications made to the final report. In accordance with Department
of Transportation Order 8000.1C, we request that you provide your written
response within 30 calendar days advising us of your planned actions as well as
target dates for taking action. You may provide alternative courses of action that
you believe would resolve the issues presented in this report. We appreciate the
                                                                             29


cooperation and assistance provided by your staff during our review. If you have
any questions concerning this report, please contact me at (202) 366-1992 or
David A. Dobbs, Assistant Inspector General for Aviation Audits, at
(202) 366-0500.

cc:   FAA Deputy Administrator
      FAA Chief of Staff
      Anthony Williams, ABU-100
      Martin Gertel, M-1

                                       #
                                                                               30




EXHIBIT. SCOPE AND METHODOLOGY
Our objectives were to (1) identify the modernization needs of FAA’s small,
medium, and large terminal sites, and (2) consider the alternatives available to
FAA to meet those needs. To address our first objective, we acquired deployment
data identifying the current configuration of terminal automation systems and
displays at every operational terminal site in the National Airspace System. For
the purposes of this report, we selected categories of terminal sites in terms of
“small,” “medium,” and “large” that help describe FAA needs based on systems
that are installed today. We also acquired historical and current cost, schedule,
and performance data for FAA’s STARS and Common ARTS terminal
modernization programs. We analyzed these data to identify the modernization
needs of FAA’s small, medium, and large terminal sites. After a number of
system failures occurred at FAA’s Denver TRACON, we visited the facility to
determine what the site’s immediate modernization needs were.

After identifying what the modernization needs were for the various sites, we
considered the alternatives available to FAA to meet those needs. We evaluated
FAA’s cost and schedule estimates for completing terminal modernization using
two alternatives: (a) an “all STARS” solution, and (b) a Common ARTS solution
that adds color displays. After determining that implementing the STARS
alternative would require a higher cost and lengthier deployment plan than the
Common ARTS alternative, we reviewed available performance data related to
particular claims of STARS superiority, including a recent report by MITRE
Corporation comparing the two systems. After FAA users reported concerns
about STARS performance at a number of operational sites, we acquired and
reviewed open STARS program technical reports related to FAA’s efforts to
address STARS radar tracker problems. For comparison, we also collected
Common ARTS fusion tracker program technical reports for review.

While conducting this review, we interviewed key FAA officials responsible for
managing major program acquisitions, terminal automation programs in general
and the STARS and Common ARTS programs in particular. We also met with
representatives of the STARS prime contractor, Raytheon; the Common ARTS
prime contractor, Lockheed-Martin; and MITRE Corporation, which conducted a
technical assessment of the STARS and Common ARTS systems. We discussed
terminal modernization needs with user representatives of the National Air Traffic
Controllers Association and the Union of Professional Airways Systems
Specialists.




Exhibit. Scope and Methodology
                                                                           31


We performed our work from December 2003 through September 2004 in
accordance with Government Auditing Standards as prescribed by the Comptroller
General of the United States.




Exhibit. Scope and Methodology
                                                                                       32




APPENDIX. MANAGEMENT COMMENTS


        Federal Aviation Administration’s (FAA) Response to



        Office of Inspector General’s Draft Report: Terminal
       Modernization: Due to Continuing Cost Growth, FAA is
                 Reevaluating its Current Approach




I Overview
The FAA recognizes the need to replace the aging displays and
associated equipment in its most critical terminal control facilities.
The draft report supports the FAA’s commitment to examine the alternatives, but
rather than wait for the agency to complete its analysis, assumes the cost of
deploying Common ARTS to the remaining sites is lower than STARS. The FAA
believes this conclusion was reached without a comprehensive analysis, and as
such, is premature. After encouraging the FAA to make a thorough study of the
alternatives six months ago, the FAA believes the OIG should give the agency
the time it needs to complete its analysis.

The Terminal Automation Modernization and Replacement (TAMR) decisions will be
based on comprehensive technical, cost and risk to service evaluations. The FAA will
assess key operational data such as the amount and complexity of air traffic operations,
the history of automation interruptions resulting in delays, site-unique requirements,
obsolescence impacts, and legal exposure. The technical re-evaluation of the Terminal
NAS and cost/benefits will be the basis for the Agency’s priority determination of the
“best value” approach for optimizing the equipment configuration at every specific
TRACON. The FAA is committed to a fair evaluation that identifies the best
solution for each site.




Appendix. Management Comments
                                                                                33


II Capabilities and limitations: The draft report does not adequately address
the capability issues and operational needs.

   • The draft report (pages 6 and 19) notes that some STARS components are
     facing obsolescence, and that technical refresh costs will rise in future
     years. The FAA recommends the report note that the same is true for the
     Common ARTS components.
   • The draft report (page 8) infers that the STARS and Common ARTS fusion
     trackers are at similar stages of development, or even that problems with
     the STARS tracker may mean it is behind the Common ARTS tracker.
     This is inaccurate. The Common ARTS fusion tracker is still under
     development, and has only been deployed to one site for testing purposes
     only. While the FAA and contractor are enhancing the STARS tracker, it is
     fully integrated into the STARS platform and operational at 45 sites
     (including the DoD sites). The report should acknowledge that significant
     work remains to be completed on the Common ARTS tracker, and that until
     FAA determines the costs of making it fully functional, a valid comparison
     between the two systems cannot be made.
   • The draft report (page 19, open architecture) states that the existing STARS
     is based on a proprietary computer standard, and therefore its design is not
     truly open. It also notes the contractor plans to develop a new replacement
     processor. Actually, the contractor is not developing a replacement
     processor. Instead, it will be selected from those available in the
     commercial marketplace and must, by FAA direction, be "qualified" before
     it can be used on the contract. Also, the operating system is not being
     modified. Once the processor is chosen, an appropriate commercial
     operating system will be used that allows STARS to continue to meet all
     STARS requirements. STARS commercial processors currently operate on
     a version of SUN Solaris (UNIX-based) commercial operating system.
   • The draft report (page 5) states: "Figure 3 shows the current distribution of
     Common ARTS, STARS, and 1970s-era terminal configurations at FAA's
     large, small, and medium terminal sites." The assumption that all Common
     ARTS IIIE TRACONs are large, Common ARTS IIEs are small, and all
     STARS TRACONs are medium is mistaken. Based on flight operations,
     several Common ARTS IIE TRACONs are medium to large, Louisville
     TRACON is small to medium and the 28 STARS TRACONs are all either
     medium to large facilities. Therefore the FAA’s operational and technical
     urgency and timing to modernize specific TRACONs in the NAS is
     different than that presented in the draft report. Of the 35 FAA Operational
     Evolution Plan (OEP) – our most critical airports, STARS will be
     operational at 18 of those sites at the end of Phase 1A. By the end of FY05,


Appendix. Management Comments
                                                                                          34


       there will be 7 OEP STARS sites that are “larger” than the CARTS site of
       MSP and a planned 12 OEP STARS sites larger than STL.


The draft report suggests the FAA continues to have a bias in favor of STARS.
While that may have been the case 2 years ago, the FAA has a new team in place
that is objectively evaluating all possible alternatives under the TAMR initiative.

III Cost
The draft report (page 3) refers to a $2 Billion cost for STARS, but does not point out
that most of this projected cost growth (as compared to the prior estimate of $1.69B) is
attributable primarily to extension of time/inability to accelerate as a result of competing
capital programs and funding priorities, rather than increases in development and
deployment costs.

IV Legal and Joint DoD Ramifications
To the extent that the draft report directs an outcome for terminal modernization,
the FAA is currently under contract to Raytheon for the full STARS deployment.
Raytheon may have legal recourse if we terminate the contract for convenience of
the Government. In addition, we have a signed MOA, which resolved the 1999
protest, to put STARS into a Common ARTS IIIE facility.
STARS is a joint FAA Department of Defense (DoD) program, currently fully
operational at 28 FAA sites as well as 18 DoD sites. Often understated, the
FAA/DoD partnership began as early as 1994 with the formulation of the joint
STARS Operational Requirements Document and has continued ever since. In
fact, the first STARS system (ISC) was operational at Eglin AFB, FL in June
2000. The program as originally planned, requires the FAA to plan for, obtain and
implement the STARS program, including the infrastructure to support the DoD’s
planned deployments for all of its fixed-base air traffic control needs, world-wide.
While this approach saved the Government from implementing two independent,
costly development programs, it put the liability to effectively implement STARS
squarely on the FAA. Decreasing STARS procurement quantities will in all
likelihood increase costs to the DoD for procuring systems to meet its needs. DoD
plans to deploy STARS worldwide to 106 radar control facilities and 75 towers
independent of the FAA’s decisions.

V Response To Recommendations

Recommendation 1: Replace aging displays at its four large terminal sites that
currently do not have color displays.
FAA Response: Concur. The FAA recognizes that replacement of the
monochrome displays at the four large terminal sites is important, especially at


Appendix. Management Comments
                                                                                35


Chicago and Denver where time is of a more critical nature than at St. Louis or
Minneapolis. However, capability at these sites is important as well. The FAA is
conducting a comprehensive technical, cost and risk evaluation to determine the
best solution for these four sites.

Recommendation 2: Request cost proposals for (a) replacing aging displays with
new color displays, and (b) implementing a STARS solution at its small terminal
sites. FAA should select the least expensive option.
FAA Response: Non-concur. The FAA believes it is premature to initiate a new
competitive bid for the CARTS IIE sites before it completes its technical, cost and
risk evaluation. The evaluation will provide the basis for determining the best
value equipment configuration at each terminal facility, consistent with
Recommendation 3. The FAA expects to complete its evaluation by summer
2005.

Recommendation 3: Defer further STARS purchases beyond those needed to
complete the 47 approved STARS sites and evaluate the long-term feasibility of
moving forward with the preferred STARS solution. This evaluation should be
based on cost, schedule, and performance parameters and should include a
comparison of the capability and functionality of FAA’s most complex STARS
sites (i.e., Boston) to a similarly sized large Common ARTS site.
FAA Response: Concur. The FAA will conduct a comprehensive technical, cost
and risk evaluation to determine the best solution for all the remaining sites.

Recommendation 4: Negotiate a fixed price contract for completing the 47 sites
already approved for STARS deployment that includes installation and adaptation
costs.
FAA Response: Concur, in part. The FAA is negotiating a firm fixed price
contract for the remaining systems, representing 65 percent of the STARS budget.
However, based on the lessons learned from earlier STARS installations, the FAA
is contracting for the installation support on a time and materials basis.
Installation represents about ten percent of STARS spending. The FAA used a
cost-plus contract for the first 28 STARS installations, and the actual costs never
exceeded the agency's estimates. The FAA believes a time and materials contract
for the remaining 19 installations will avoid the higher risk-adjusted costs that
accompany fixed price installations. The FAA also believes that it has sufficient
experience with STARS to ensure that these installations come in at their budgeted
cost.




Appendix. Management Comments
                                                                               36



VI Other Specific Comments:


Top of page 2. “FAA’s cost estimating and analysis process for STARS has been
slowed considerably by the Agency’s decision to reconsider its terminal
modernization approach.”
   • This sentence implies that FAA has been responsible for delaying the IG’s
     response to Congress. FAA began providing data to the OIG in December
     2003 and continued doing so until July 2004. Since that time, the agency
     has been providing timely responses to inquiries from the OIG.


Page 3. “Development was originally estimated to be $80 million and is still not
complete.”
   • Sentence needs to be clarified to indicate that this figure represents the
     estimated development at the date of contract award. It should also be
     pointed out that the computer-human interface enhancements, which caused
     a significant amount of development cost growth, were supported by the
     OIG at the time.


Page 4. “…at least 2 more years and cost $57 million without hardware…”
   • The $57 million applies to all eleven CARTS IIIE sites. The development
     costs for Chicago alone are estimated to be $12 million.


Page 20. Paragraph on Redundancy and emergency back-up.
   • The paragraph does not make it clear that both of the STARS full service
     levels have full safety features. Furthermore, the Radar Gateway feature of
     CARTS is a relatively new upgrade that is only available at only 7 of the 11
     IIIE sites (not at any of the IIE sites and not at ORD, MSP, STL or DEN).




Appendix. Management Comments
